No. 20 - 1579
In the Supreme Court of the United States
Vivian Epps, Petitioner,

v.
CVS Health Corporation, Respondent.

On Writ of Certiorari to the United States Court of Appeals for the California Ninth Circuit

PETITIONER'S REPLY BRIEF TO RESPONDENT'S
BRIEF IN OPPOSITION TO PETITION FOR
WRIT OF CERTIORARI TO THE SUPREME COURT OF
WASHINGTON DC

REPLY BRIEF FOR PETITIONER

b
ta.i..4
ra
Vivian Epps
Pro Se
411 E. Indian School Rd., #3119
Phoenix, Arizona 85012
Telephone: (602) 277-5551 ext. 5206
cti

CVS Health Corporation
Undersigned Counsel, Robert B. Zelms, et al
4600 E. Washington St., #300
Phoenix, Arizona 85034
Telephone: (480) 608-2114

CORPORATE DISCLOSURE STATEMENT CORRECTION

Pursuant to Supreme Court Rule 29.6, Applicant return Mail, Inc., discloses the following,
"CORRECTION" to Respondent CVS Health Corporation's corporate disclosure statement.
CVS Health Corporation is a independent private company owning 10% or more of its stocks
and is the Parent Company CONNECTED to the Subsiding German Dobson CVS, LLC who's
owner to the institution business CVS store # 2963 at 711 E. Indian School Rd. in Phoenix
Arizona, 85014 as presented by one of Petitioner's 3-Newly Source Evidence of the
Respondent's "OWN" In-House Customer Relations Department document email that were
given to the Petitioner and the same information from the S.E.C. emailed report document to
Petitioner shown that the Respondent is the Parenting Company to multiples CVS stores
throughout the 50-States of the United States, owning 10% or more of its stocks with a yearly net
assets of $186.6 billion and German Dobson CVS, LLC name with its State are among the listing
subsidiaries names that the parenting company CVS Health Corporation wholly-owns its
Subsidiaries companies.

Moreover, Respondent own IN-HOUSE Customer Relations Department stated clear and precise
(of the 3-newly source evidence that both lower courts refused to acknowledge and district judge
Campbell substitute/replaced his saying that he DENIED my Rule 60(b) for Plaintiff used old
evidence for Rule 60(b) Pharmacy, Inc and the Ninth Circuit 3-Panel judges supported district
judge Campbell's Bias with Prejudice false allegation) that CVS Health Corporation is Parent
Company to Subsidiary CVS Pharmacy, Inc., Parent Company to Subsidiary German Dobson
CVS, LLC and Parent Company to the Institution Business CVS store #2963 at 711 E. Indian
School Rd., Phoenix, Arizona 85014.

TABLE OF CONTENTS

Corporate Disclosure Statement Correction
Table of Contents
Opposing Respondent's Related Cases
Citations of Opinions
Lists of Parties
Basis for Jurisdiction
Table of Authorities
Introduction
Statement of Case with Argument
Reasons for Denying Respondent
#1 and #2
A, B, and C

Page - i
Page - ii
Page - iii
Page - iv
Page - iv
Page - iv
Page - v
Page - 1
Page - 2
Page - 3
Page -3
Page -3

Conclusion

Page -5

ii

OPPOSING RESPONDENT'S RELATED CASES

Respondent's "Related Cases" of #1 and #2 are inappropriate and respondent FAILED to
demonstrate the meaning of Federal Court's definition of a "RELATED CASE" as to "including
ANOTHER pending and/or ANOTHER post-case having involving at least one of the same
parties similarities common question(s) of Law or Facts" that a Justice and/or Judge shall
determine in his/her discretion if the case should be considered related (DC Circuit Local Rule
28(a)(1)(c) define a Related Case as including ANOTHER pending case/post-case involving the
same or similar issues of law or facts).
So how's that the respondent's #1 and #2 become a Related case to petitioner's own on-going
pending case that the respondent's claimed as related cases is cognitive-confusing meritless
beyond respondent's comprehension.

iii

CITATIONS OF OPINIONS

District Court of PHX-Arizona; Case # 2:18-cv-012174-DGC
Ninth Circuit Court of Appeals; Case # 19-16100

LIST OF PARTIES
Vivian Epps - Petitioner
CVS Health Corporation - Respondent

BASIC for JURISDICTION
The denied final judgement of the Ninth Circuit Court of Appeals was entered on December 8,
2020. A petition for a Rehearing was denied on December 8, 2020. This Court's jurisdiction rests
on Federal Law cited 28 U.S.C. section 12-54(1).

iv

TABLE OF AUTHORITIES

STATUTES
Federal Law 28, U.S.C. section 1254(1)
Legislative code Civ.P. section 170.6(a)(2)
Congress Electronic Record Freedom of Information Act 1996

iv
2
5

RULES
DC Circuit Local Rule 28 (a)(1)(c)
Supreme Court Rule 28, U.S.C. section 2403(a)
Supreme Court Rule 14.1(b) (iii)
Default Judgement 7-days Time Limits
Supreme Court Rule 10(a)

iii
2
3
4
3

CONSTITUTIONAL PROVISIONS
14th Amendment with Due Process Clause

3,5

No. 20-1579
In The Supreme Court of the United States

Vivian Epps
Petitioner,

On Appeal from Ninth Circuit Court
No. 19-16100

v.
CVS Health Corporation
Respondent.

Assigned from District Court
District of Phoenix, Arizona
No. 18-cv-01274-David G. Campbell

REPLY BRIEF FOR PETITION

INTRODUCTION

The brief for the respondent in opposition to the petition for writ of certiorari filed herein is
based upon petitioner's challenge constitutionality rights to the legal argument in the
respondent's brief various sections of any legal issues and non-legal meritless issues that must be
addressed in the respondent's brief to this Court.
This Court's precedent demonstrates that the Court should refuse to address a respondent's
issues raised for the FIRST-TIME in the respondent's brief in opposition that were NOT in brief
of both lower courts.

Page-I

STATEMENT of CASE with ARGUMENT
Respondent stated that the Ninth Circuit affirmed the Final Judgement in the Unpublished Memorandum
decision on September 16, 2020, But Respondent did NOT include the origin of the Unpublished
Memorandum that Ninth Circuit based its decision for Final Judgment of district Judice Campbell's
prejudice September 8, 2020 Unpublished Memorandum violate discriminated Petition from having a Fair
and Impartial action decision of the Ninth Circuit's 3-panelJudges decision and violated Petitioner from
having the opportunity for FAIR JUSTICE to explain, contradict and rebut the Ninth Circuit's docketing
Judge Campbell's September 8, 2020 Unpublished Memorandum into Ninth Circuit's docket on
September 16, 2020 that the Petition is citing that Rule 28, U.S.C. section 2403(a) may apply and shall be
served on the Solicitor General that this Court's should seek out the intervention of the Solicitor
General's invitee's view-opinions because the Respondent's statement above correlates to that of the
Petitioner's about the above saying of distinct court's sent unpublished Memorandum (without the
Petitioner's awareness until AFTER she received the resulted denied Final Judgment) which gave way to
her Final Judgment does confirm Petition long sought after belief (when I filed a motion to recuse Judge
Campbell with a peremptory challenge, Judge Campbell refused to give my case to another district judge)
that she felt that she could not get a fair trial for Judge Campbell is PREJUDICE against her and her case
with which Petitioner attached her Affidavit of Prejudice with her motion Recuse with her Peremptory
Challenge as a matter of law supposed to have automatically remove Judge Campbell off her case which
he chosen ABUSE of POWER to not get off my case.
Petitioner's writ of Certiorari petition is NOT untimely for she filed her Certiorari petition under the
extended 150 day from her dated entry December 8, 2020 denied final judgment and the clerk of the
Supreme Court sent materials to Petition and among the stack-information paperwork materials, the
Petitioner read carefully that the 90 days were extended to 150 days so Petitioner's dated MAY 6, 2021
does meet within the scope of 150 days granted by this Court, so as a matter of law, this Court does have
proper jurisdiction and does NOT lack jurisdiction to entertain Petitioner's timely Writ of Certiorari.
With Respondent assuming the Court fmds Petitioner's Writ of Certiorari to be timely, still does contest
Petitioner's STATEMENT of CASE to refers the Court to the district court's order filed May 7, 2019
(doc. 101), since District Court Judge Campbell had refused to recuse himself with abuse-of-power after
being served by Motion Recuse with a Statue, code Civ. P. section 170.6(a)(2) Peremptory Challenge that
the Legislature passed which the peremptory challenge supposed to automatically remove the trial judge
off the case and any actions of that district Judge Campbell.

Page-2

REASONS for DENYING RESPONDENT

I - #1). Respondent's opposition brief does NOT address any perceived misstatement of fact or
law in the petition that bears on what issues properly would be before this Court if Certior were
granted.
#2.) Furthermore, respondent could NOT identify ANOTHER pending and/or ANOTHER post
Related Case(s) that were not identified in the petition under Rule 14.1 (b)(iii), including for
each such case the information called for by Rule 14.1(b)(iii).
II A - Petitioner's Writ does NOT fail to meet the criteria listed under Rule 10 of the United
States Supreme Court for the Petitioner's "5"- Questions Presented all meets the meaning of
Rule 10 (a) stated or has so far departed from the accepted and usual course of judicial
proceedings, or sanctioned such as departure by a lower court, as to call for an exercise of this
Court's Supervisory power".
B - My five-Questions Presented has significant constitutionality issues that do need this Court's
exercise supervisory power to include the entertainment invitee of the solicitor general assistance
viewpoints of petitioner's five-Questions Presented.
C - Petitioner's five-Questions Presented further meets the Rule 10(a) above in "A" for the fiveQuestions Presented in the Writ of Certiorari is extremely important as to petitioner's
Constitutional Rights and 14th Amendments with Due Process Clause with raised directly
conflicts wit Statutes, Regulatory and Acts of Supreme Court precedent.
D - The Respondent misleading statement in II section, page 3, under "First" stating, "there are
no conflicting decisions with other United States Court of Appeals "in lieu of my case when in
fact, no other United States Court of Appeals are NOT aware of my Pro se case and have not
seen its contents....of Respondent's "second", misleading statement, "the underlying case was a
state law tort Action from an Alleged personal injury claim that was "REMOVED" to the
District Court for the District of Arizona on the basis of diversity jurisdiction".
My lawsuit case was NEVER of any State CASE ACTIONS with NO docket number's on file
and I have NOT filed a State lawsuit because I could NOT handle a State case against the
Subsidiary Owner of the CVS store # 2963 and at the same time to handle a Federal lawsuit to
the PARENT COMPANY who also owns the CVS store #2963 and the Parent Company
wholly-owns both Subsidiary company that runs the CVS store #2963.
Page-3

Due to my TBI pre/post injuries and "NOTas an alleged injury" of permanent damaged brain
particles scattered with the connection synapse of my brain nerve cells with neuron cell being
permanent unconnected damaged is the cause of my permanent sporadic memory lapse,
neuropathy of hands/feel/legs, non-stop ringing noise in my head, had 2 strokes due to TBI, my
lifestyle pleasure taken away, and etc of other health issues....A faulty estimated over 1201bs
CVS metal equipment being in a hazardous location above the overhead glass Dairy Refrigerator
door of which the heavy, thick metal equipment had fallen off its hinges and full jolt impact had
hit me on back-top of my head as I was already bending down to retrieve a one gallon of 2%
Milk on a bottom shelf. Due to the impact of my head injury, I could not take on 2 lawsuit cases
at the same time because of my medical mental health after the accident was the reason as to why
I did not file a State case and there were no state action AND no state action were "Removed"
into Federal Court. Once my negotiations with CVS store Insurance Adjustor had failed, I
initiated my lawsuit into the Federal District Court based on diversity jurisdiction of the Parent
Company "CVS Health Corporation" being in Rhode Island (out of state of Arizona), and of
respondent's "Third", misleading statement stating, "no important federal questions were
decided or at issue in the pending case", NOT TRUE, for the Petitioner's Ninth Circuit Appeals
OPENING Brief with attached 3-newly plausible Source admissible Evidence for Rule 60(b)
were ignoredand district Judge Campbell twisted-around my 3-Newly Source Evidence(I think it
were in doc. #126) to have said in his Denial Order that I used Old Evidence for Rule 60 (b)
Pharmacy, Inc., WHICH I DID NOT, and the Respondent got to defend an UNTIMELY
defaulted Answer from district court into appeals court.
.My case should have been done on the date of September 27, 2018 with my winning by Default
against the Defendant. NOT once,. but TWICE the defendant were allowed by the district Judge
Campbell to get away with Default, the FIRST one of defendant allowed 90 days to pass without
Answer to my served Summons with Complaint of April 25, 2018 time limit of 21 days and I
filed entry default on August 22, 2018 with a default judgement guideline of 7days Time Limit
to the Defendant with its undersigned attorney Robert B. Zelms and again NO response after the
7-day Time-limit has passed on into 6-days in default, I filed my August 22, 2018 Default
Judgement against Respondent, and again, the district judge Campbell said the Defendant has a
Protective Answer, yet the date of August 22, 2018 and September 4, 2018 says differently of
being with an UNTIMELY default Answer of 6 days pass the 7 days Time Limit. The "Fourth"
respondent's misleading statement, "the alleged errors asserted in the pending case relating to
factual determination, clearly within the discretion of the trial courts, and there was no departure
from the accepted and usual course of judicial proceedings", Thus, this does not need to Review
this matter and Petitioner's Writ should be denied.

Page-4

My question(s) for the "Fourth statement", the Respondent were NOT clear and precise as to,
"WHAT TYPE OF ALLEGED ERRORS" for there were slew(one example of both lower court
refused to uphold Congress electronic record act of 1996 like its paper counterpart)types of
Constitutional violations misgiving of Petitioner's Five-Questions Presented in her Writ that
were initially presented within District Court into the Ninth Circuit Appeals Court with District
Judge Campbell adding prejudice icing-on-the-cake and spoken wrongly of my Opening Brief to
say,"I did NOT argue about Defendant's obtaining Summary Judgement in the District Court" to
the Appeals Court in his submitted September 8;2020 Not For Publication Memorandum which
contributed to my denial final judgment.
Petitioner did argued her case about the Defendant's Summary Judgement FRAUD upon the
court in the District Court in her OPENING BRIEF on page 5-5 of letter "M" section
I am
still left with the question as to how is it possible for Judge Campbell to say that "I Waived my
Rights to Contest since I did NOT argue my case in the Opening Brief ", when in fact it is
typed/written on pages 5-5, M-section and for the Ninth Circuit 3 judges agreed with whatever
Judge Campbell says without checking my Opening Brief and when I did file my Post 2nd
peremptory challenge for a Rehearing of wanting to show that district judge read wrongly, the
proof will clear-up his wrongly state merits, still the Ninth Circuit 3 judges Denied my Motion
for Rehearing. I have had my Constitutional Rights of my 14th Amendment with Due Clause
violated by the lower court judges infringed the Rule of Natural Justice against the Petitioner
with being discriminated from benefiting by the laws statutes, regulations and Acts of Congress
of evening the Ninth Circuit 3 judges moot and denied my CONGRESS and Supreme Court's
entitlement as a Citizen for a 2nd Post Peremptory Challenge to final denied judgement of my
Rights for a new trial with a new district judge (I hope that Judge Campbell does not taint the
mind of the new District Judge) using my 3 newly source evidence to exposed Respondent with
undersigned counsel Rober B. Zelms of their "Fraud Upon the Court".

CONCLUSION
Access to the Constitutional Statutes, Regulations and Acts laws are vital to our democratic way
of life for freedom protection against fraudulent, perjury, discriminaton of law and judicial bias
with prejudice, implicit in the meaning of democracy, is that it is the Rights and Obligations that
are applied to all citizens without regards to race, skin color, natural origin and of pro se status.
The petition for Certiorari and Reply Brief in support thereof and Respondent's Brief in
Opposition there to, when read together establish the overwhelming importance and significance
of the issues raised in Petitioner's "Five-Questions Presented" and Petitioner's reasons to obtain
writ's grant for leave of Court's to invitee Solicitor General's intervention view opinions to
Petitioner's five-Questions Presented in her Certiorari Brief.
Page-5

Wherefore, that the Respondent's opposition Brief with Respondent's request against
Petitioner's Writ to be DENIED and the Petitioner's petition for Writ of Certiorari to Review and
Act on the final judgement of the court below, should be granted by the Justices'of the Supreme
Court.

Respectfully Submitted,
a •
i
31,vv,t_ 16))^0e)-1
V ..AAAr
Vivian Epps, Petitioner
411 E. Indian School Rd., #3119
Phoenix, AZ 85012
Telephone: (602) 277-5551 ext. 5206
vivian.epps(a)va.kwy

Page-6

